App. 1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
V.

HEON-CHEOL CHI,
Defendant-Appellant.

No. 17-50358
D.C. No.
2:16-cr-00824-JFW-1
OPINION

Appeal from the United States District Court
for the Central District of California,
John F. Walter, District Judge, Presiding,
Argued and Submitted December 7, 2018
Pasadena, California
Filed August 30, 2019
Before: Johnnie B. Rawlinson and Carlos T. Bea, Circuit
Judges, and Benjamin H. Settle,* District Judge.
Opinion by Judge Bea

* The Honorable Benjamin H. Settle, United States District
Judge for the Western District of Washington, sitting by designation.

App. 2
SUMMARY**
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Criminal Law
The panel affirmed a conviction under 18 U.S.C.
§ 1957 for engaging in a monetary transaction of over
$10,000 derived from a “specified unlawful activity,” in
a case in which the defendant, a citizen of South Korea
who was employed as a principal researcher and director at a government-funded geological research institute in South Korea, solicited and received payments
from two seismometer manufacturers in exchange for
ensuring that the research institute purchased their
products, and gave the companies inside information
about their competitors.
The “specified unlawful activity” articulated in the
indictment was, as defined in 18 U.S.C. § 1956(c)(7)(B),
“an offense against a foreign nation involving . . . bribery of a public official;” and the offense against a foreign nation involving “bribery of a public official” was
Article 129 of the South Korean Criminal Code.
The panel held that “bribery of a public official” in
§ 1956 is defined by that phrase’s “ordinary, contemporary, common meaning,” and is not constrained by the
federal bribery statute, 18 U.S.C. § 201, a statute to
which § 1956 makes no reference. The panel held that
because the crime described in Article 129 fits
** This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

App. 3
comfortably within the ordinary meaning of “bribery of
a public official” as used in § 1956, the indictment was
sufficient and there was no instructional error.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

COUNSEL
Benjamin L. Coleman (argued), Coleman & Balogh
LLP, San Diego, California, for Defendant-Appellant.
John-Alex Romano (argued), David M. Fuhr, and Anna
G. Kaminska, Trial Attorneys; John P. Cronan, Acting
Assistant Attorney General; Poonam G. Kumar, Assistant United States Attorney; Nicola T. Hanna, United
States Attorney; United States Department of Justice,
Criminal Division, Washington, D.C.; for PlaintiffAppellee.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

OPINION
BEA, Circuit Judge:
Dr. Heon-Cheol Chi, a citizen of South Korea, was
employed as a principal researcher and director at the
Korea Institute of Geoscience and Mineral Resources
(KIGAM), a government-funded geological research institute in South Korea. Over nearly fifteen years, Chi
solicited and received payments from two seismometer
manufacturers. In exchange, he ensured that KIGAM
purchased their products, and he gave the companies
inside information about their competitors. He asked
the companies to route his payments—which totaled
over a million dollars—to a bank account in the United

App. 4
States. An FBI investigation ensued, and Chi was arrested on December 12, 2016.
Chi was indicted for six counts of violating 18
U.S.C. § 1957, which criminalizes engaging in monetary transactions of over $10,000 derived from certain
“offense[s] against a foreign nation,” including crimes
involving “bribery of a public official.” 18 U.S.C. § 1956.
The “offense against a foreign nation” here was a violation of Article 129 of the South Korean Criminal
Code. The district court concluded that Article 129
could properly be classified as describing an offense involving “bribery of a public official,” and the jury was
instructed on the elements of that offense. Chi was convicted on one count, Count 6.1
On appeal, Chi argues that the district court misinterpreted the term “bribery of a public official” as
used in § 1956. According to Chi, “bribery of a public
official” is a reference to the federal bribery statute, 18
U.S.C. § 201, and the district court erred by failing to
ensure that the crime described in Article 129 fell
within the elements of the crime described in said
§ 201. We disagree. We hold that “bribery of a public
official” in § 1956 is defined by that phrase’s “ordinary,
contemporary, common meaning,” Perrin v. United
States, 444 U.S. 37, 42 (1979), and is not constrained by
18 U.S.C. § 201, a statute to which § 1956 makes no
reference. Furthermore, because we find the crime
1

Count 6 was based on the November 22, 2016, deposit into
Chi’s Merrill Lynch account of a $56,000 check from his Bank of
America account.

App. 5
described in Article 129 of the South Korean Criminal
Code fits comfortably within the ordinary meaning of
“bribery of a public official” as used in § 1956, we find
the indictment was sufficient and that there was no instructional error. Accordingly, we affirm the judgment
of the district court.
BACKGROUND
KIGAM is a government-funded geological research institute in South Korea. KIGAM’s Earthquake
Research Center operates a nationwide acoustic network to monitor seismic activity and artificial blasts.
In addition, it serves as South Korea’s data center for
the United Nations Comprehensive Test Ban Treaty
Organization (CTBTO), which monitors nuclear weapons tests around the world.
Chi was a seismologist at KIGAM. He worked as a
principal researcher and was the director of the Earthquake Research Center. Additionally, he served on a
technical working group for the CTBTO, and he advised the President of South Korea on nuclear weapons
testing as well. KIGAM purchases and distributes a
large amount of geological equipment; over time, Chi
became intimately involved in the procurement process.
KIGAM frequently purchased equipment from
Guralp Systems, a seismometer manufacturer in England. On September 7, 2015, Guralp Systems’ executive chairman, Christopher Potts, noticed that the
company had paid Chi “several hundred thousand

App. 6
dollars” over the previous several years, which “seemed
like a large amount of money.” Upon further inspection,
he discovered that Guralp Systems had paid Chi
“nearly a million dollars from 2003 through to 2015”
pursuant to a one-page, hand-written consulting
agreement. But the letter didn’t “look like a consulting
agreement at all.” Potts became apprehensive that the
payments “could . . . be bribes.”
After discussing the matter with his associates,
Potts confronted Chi over lunch on September 15,
2015. He told Chi that he believed the arrangement to
be inappropriate and illegal. Chi did not disagree, but
promptly called “his boss or his director,” spoke briefly
to him in Korean, and then reassured Potts that his
superior “had agreed that it was okay to have an official agreement between [Guralp Systems] and KIGAM.”
Potts declined such an arrangement.
Over the next several months, Chi attempted a variety of pricing maneuvers to receive what he termed
“advice fees” from Guralp Systems. Potts consistently
rebuffed him. In December 2015, Potts confronted Chi
again, this time at a geophysics conference in San
Francisco. Chi admitted that he was a government official and that the previous arrangement was illegal,
but after the conference concluded, he renewed his efforts to be paid. He emailed Potts asking for a “consulting agreement” that would pay $300,000 over the next
three years, and demanded payment for services

App. 7
rendered under the previous agreement.2 Potts never
replied. Instead, he notified the United Kingdom Serious Fraud Office (SFO), which began an investigation.
At some point, the FBI became involved as well.
The FBI investigation revealed the existence of
another company: Kinemetrics, a seismometer manufacturer headquartered in Pasadena, California.3 Like
Guralp Systems, Kinemetrics paid Chi money in exchange for recommending and purchasing their products.
In addition, Chi provided Kinemetrics information
about the company’s competitors, sending them confidential presentations from other manufacturers. Chi
was surprisingly candid in his communications with
Kinemetrics, often admitting that his conduct was
against the law.
The investigation also revealed a money trail. Because Chi had to report his “cash flow . . . to [the] government every year,” he asked Kinemetrics and Guralp
Systems to deposit his fees in a Bank of America account in Glendora, California. Between 2009 and 2016,
the two companies wired $1,044,690 to that account.
Chi then transferred $521,000 from the Bank of America account to a Merrill Lynch account in Fort Lee, New
Jersey. From there, he transferred the money to his

2

As before, Chi admitted that he was “a government officer,”
and that the “previous [contract] was illegal,” but claimed that he
now had “permission from [his] president on the contracts.”
3
Some of the agreements entered into by Chi were with
Quanterra, a wholly-owned subsidiary of Kinemetrics. We refer
to both entities as Kinemetrics.

App. 8
Citibank account in South Korea. None of the money
was ever transferred to KIGAM.
On December 12, 2016, Chi flew to San Francisco
for a seismology convention, where the FBI arrested
him in the airport. A grand jury returned an indictment charging Chi with six counts of engaging in monetary transactions derived from a “specified unlawful
activity,” in violation of 18 U.S.C. § 1957. The “specified
unlawful activity” articulated in the indictment was—
as defined in 18 U.S.C. § 1956(c)(7)(B)—“an offense
against a foreign nation involving . . . bribery of a public official.” And the offense against a foreign nation involving “bribery of a public official” was Article 129 of
the South Korean Criminal Code.4
Chi moved to dismiss the indictment on the
ground that it did not adequately allege the offense. He
claimed that in addition to alleging a violation of Article 129, the indictment was required to allege a violation of 18 U.S.C. § 201, the federal bribery statute.5 The
district court denied Chi’s motion. During trial, Chi
made a similar argument, suggesting that the jury
should be instructed on domestic bribery law in
4

As translated in district court, Article 129 states, in relevant part:
A public official or an arbitrator who receives, demands
or promises to accept a bribe in connection with his/her
duties, shall be punished by imprisonment for not more
than five years or suspension of qualifications for not
more than ten years.
5
Specifically, Chi asked the district court to issue an instruction requiring the jury to find that he “intend[ed] to be influenced
in the performance of an official act.”

App. 9
addition to the elements of Article 129. The court rejected that argument too. It agreed that “it must ensure that the definition of ‘bribery’ under Article 129 of
the South Korea Criminal Code falls within the category of conduct of a bribery of a public official, as contemplated by Section 1956(c).” But it found that the
definition in Article 129 did fall within that category,
thereby rejecting Chi’s claim.6 Importantly, the court
read the translated Article 129 to the jury.
The jury ultimately convicted Chi on Count 6,
which arose from a $56,000 check sent from the Bank
of America account in California to the Merrill Lynch
account in New Jersey. It was unable to reach a verdict
on the five remaining counts. Chi now appeals, arguing
that the crime described in Article 129 of the South Korean Criminal Code must also fall within the ambit of
the crimes described in 18 U.S.C. § 201, and that the
indictment and jury instructions were in error as a result. Chi also argues that the court incorrectly interpreted South Korean law, and that insufficient
evidence supported his conviction on Count 6.
6

The district court ultimately defined the elements of Article
129 as requiring the government to prove that:
(1) The defendant is a public official for the purposes
of Article 129; and
(2) The defendant received, demanded, or promised to
accept a payment in exchange for exercising his official
duties, or in other words, as a quid pro quo for exercising his official duties.
The district court instructed the jury that as a matter of law, “a
director or researcher at [KIGAM] is a public official for the purposes of Article 129.”

App. 10
STANDARD OF REVIEW
The sufficiency of an indictment is subject to de
novo review. United States v. Berger, 473 F.3d 1080,
1097 (9th Cir. 2007). In addition, we review “the wording of jury instructions for an abuse of discretion, but
review de novo whether jury instructions omit or misstate elements of a statutory crime or adequately cover
a defendant’s proffered defense.” United States v.
Kaplan, 836 F.3d 1199, 1214 (9th Cir. 2016) (citation
omitted).
In reviewing a conviction for sufficiency of the evidence, our court conducts a two-step inquiry. First, we
“consider the evidence presented at trial in the light
most favorable to the prosecution, and second, [we] determine whether the evidence so viewed is adequate to
allow any rational trier of fact to find the essential elements of the crime beyond a reasonable doubt.”
United States v. Lemus, 847 F.3d 1016, 1020 (9th Cir.
2016).
DISCUSSION
A. Section 1956(c)(7)(B) Should Be Interpreted
to Take the Ordinary, Contemporary, Common Meaning of “Bribery of a Public Official”
at the Time Congress Enacted the Statute
The legal question at the heart of this case is simple: what does an “offense against a foreign nation involving . . . bribery of a public official,” as found in 18
U.S.C. § 1956(c)(7)(B), mean?

App. 11
To understand where § 1956(c)(7)(B) fits within
the statutory scheme, we begin with its neighboring
statute, § 1957. That statute reads:
(a) Whoever . . . knowingly engages or attempts to engage in a monetary transaction in
criminally derived property of a value greater
than $10,000 and is derived from specified unlawful activity, shall be punished as provided
in subsection (b).
18 U.S.C. § 1957. In order to define the term “specified
unlawful activity,” § 1957 declares that the term “shall
have the meaning given . . . in section 1956 of this title.” 18 U.S.C. § 1957(f ). That brings us to § 1956(c),
which states:
(7) the term “specified unlawful activity”
means—
(B) with respect to a financial transaction occurring in whole or in part in the
United States, an offense against a foreign nation involving—
(i) the manufacture, importation,
sale, or distribution of a controlled
substance (as such term is defined for
the purposes of the Controlled Substances Act);
(ii) murder, kidnapping, robbery,
extortion, destruction of property by
means of explosive or fire, or a crime
of violence (as defined in section 16);

App. 12
(iii) fraud, or any scheme or attempt to defraud, by or against a foreign bank (as defined in paragraph 7
of section 1(b) of the International
Banking Act of 1978);
(iv) bribery of a public official, or
the misappropriation, theft, or embezzlement of public funds by or for
the benefit of a public official;
(v) smuggling or export control violations involving—
(I) an item controlled on the
United States Munitions List established under section 38 of the
Arms Export Control Act (22
U.S.C. 2778); or
(II) an item controlled under
regulations under the Export
Administration Regulations (15
C.F.R. Parts 730–774);
(vi) an offense with respect to
which the United States would be obligated by a multilateral treaty, either to extradite the alleged offender
or to submit the case for prosecution,
if the offender were found within the
territory of the United States; or
(vii) trafficking in persons, selling
or buying of children, sexual exploitation of children, or transporting, recruiting or harboring a person,

App. 13
including a child, for commercial sex
acts;
18 U.S.C. § 1956 (emphasis added). In other words, for
an act to qualify as “specified unlawful activity,” it
must be “an offense against a foreign nation.” But not
every violation of foreign law is a “specified unlawful
activity.” To qualify, the “offense against a foreign nation” must fall within the bounds of one of the listed
categories—say, “bribery of a public official.” The question here is how to define the categorical boundaries of
such “bribery of a public official.”
Though we have never resolved this question, our
circuit has adjudicated matters under § 1956(c)(7)(B)
before. In United States v. Lazarenko, Pavel Lazarenko,
the former Prime Minister of Ukraine, was charged
with engaging in a monetary transaction derived from
a violation of an “offense against a foreign nation involving . . . extortion” under § 1956(c)(7)(B). 564 F.3d
1026, 1029–31 (9th Cir. 2009). “[T]he jury was instructed that it had to find a violation of Ukra[i]nian
law and was provided with the elements of the relevant
Ukra[i]nian statutes.” Id. at 1034. The Ukrainian extortion statutes did not require the jury to find that
Lazarenko had used violent means to accomplish the
extortion. On appeal, Lazarenko argued that “extortion” in § 1956(c)(7)(B) was limited to “extortion
through violence” and therefore made the Ukrainian
law he had allegedly violated inapplicable. Id. at 1038.
We disagreed. We acknowledged that some federal
statutes used the term “extortion” to refer to “extortion

App. 14
by violence,” but explained that those statutes also
used the term to mean “extortion under color of official
right.” Id. at 1039. We also highlighted the common law
definition of extortion—which “resembled what we
know as bribery”—and noted that this “broad interpretation” was supported by extortion’s “ordinary meaning.” Id. at 1039–40. In other words, regardless
whether one interpreted § 1956(c)(7)(B) by consulting
federal statutes, common law, or the term’s ordinary
meaning, the Ukrainian law describing the required elements of extortion fell comfortably within the category of “extortion” even though the Ukrainian law did
not require violence as an element. Id.
We next considered § 1956(c)(7)(B) in United
States v. Chao Fan Xu, though like Lazarenko, that
opinion shed little light on the statute’s interpretation.
706 F.3d 965 (9th Cir. 2013), abrogated on other
grounds by RJR Nabisco, Inc. v. European Cmty., 136
S. Ct. 2090 (2016). In Chao Fan Xu, four Chinese nationals engaged in a complex series of financial crimes,
diverting bank funds from the Bank of China and entering into fraudulent marriages in the United States
to conceal their scheme. Id. at 972–73. After fleeing to
the United States, they were arrested and charged
with several crimes, including engaging in monetary
transactions derived from violations of an [sic] “an offense against a foreign nation involving . . . fraud” under § 1956(c)(7)(B). Id. at 986. This time, the foreign
offenses were two articles of the Criminal Law of the
People’s Republic of China.

App. 15
Among other arguments, the defendants in Chao
Fan Xu contended that the rule of lenity should apply
to “an offense against a foreign nation involving . . .
fraud.” Id. at 986–87. We rejected that claim. Noting
that “we resort to the rule of lenity only if the statute
is ‘truly ambiguous,’ ” United States v. GonzalezMendez, 150 F.3d 1058, 1061 (9th Cir. 1998), we said
that “American law provides a straightforward definition of common fraud.” 706 F.3d at 987–88. But our conclusory reference to “American law” did not specify a
methodological approach, nor did it reference a particular statute. Thus, we left the question of how to interpret § 1956(c)(7)(B) unanswered.
Our circuit precedent may not provide much guidance, but the Supreme Court’s jurisprudence in other
contexts is instructive. Like § 1956(c)(7)(B), the Travel
Act, the Armed Career Criminal Act (ACCA), and the
Racketeer Influenced and Corrupt Organizations Act
(RICO) contain categories of crimes within which other
laws fall—in those cases, state criminal statutes. In
analyzing those statutes, the Supreme Court has consistently adopted the “fundamental canon of statutory
construction . . . that, unless otherwise defined, words
will be interpreted as taking their ordinary, contemporary, common meaning.” Perrin, 444 U.S. at 42. We
adopt that same approach here.
Perrin involved a prosecution for bribery under
the Travel Act, 18 U.S.C. § 1952 (1961), which criminalizes those who travel or use “interstate or foreign commerce” with the intent to further “unlawful activity.”
Id. at 38. The Travel Act defines “unlawful activity” as

App. 16
“extortion, bribery, or arson in violation of the laws of
the State in which committed or of the United States.”
18 U.S.C. § 1952 (1961). The defendants, who were indicted for committing a commercial bribery scheme in
violation of Louisiana law, argued that their indictment failed to state an offense because “bribery” carried its common law meaning, and “commercial bribery
was not an offense at common law.” Perrin, 444 U.S. at
41. But the Court found it unlikely that Congress was
unaware that “the common understanding and meaning of ‘bribery’ had extended beyond its early commonlaw definitions” when the Travel Act was enacted in
1961. Id. at 45. The Court therefore applied the maxim
that “words generally should be interpreted as taking
their ordinary, contemporary, common meaning,” holding that a “generic definition of bribery, rather than a
narrow common-law definition, was intended by Congress,” thereby affirming the defendants’ conviction.
Id. at 49.
Three decades later, the Court adopted the same
approach in Taylor v. United States, 495 U.S. 575
(1990). There, the Court considered the meaning of the
word “burglary” in the ACCA, which applies a sentencing enhancement to individuals convicted of several
categories of crimes. Id. at 577–78. Citing Perrin, the
Court concluded that what “Congress meant by ‘burglary’ ” was the “generic sense in which the term is now
used.” Id. at 598. Thus, using the Model Penal Code
and a contemporary criminal law hornbook, the Court
announced that “a person has been convicted of burglary for purposes of [the ACCA] if he is convicted of

App. 17
any crime, regardless of its exact definition or label,
having the basic elements of unlawful or unprivileged
entry into, or remaining in, a building or structure,
with intent to commit a crime.” Id. at 599. The Court
then remanded the case for further proceedings, instructing the lower court to analyze whether the burglary statutes in question included the elements of
“generic burglary.” Id. at 602.
The Court also adopted this approach to statutory
interpretation in Scheidler v. National Organization
for Women, Inc., a RICO case. 537 U.S. 393, 410 (2003).
Scheidler considered the definition of an “act or threat
involving . . . extortion, . . . which is chargeable under
State law.” Id. at 409 (quoting 18 U.S.C. § 1961(1)). The
defendants, found guilty of committing extortion under
a state extortion statute that did not require them to
obtain property as part of the crime, argued for a generic definition of “extortion.” The Court agreed. Referencing Taylor, it held that “extortion” under RICO was
limited to state statutes that criminalized conduct that
would be “generically classified as extortionate.” Id. at
409. And because the Model Penal Code and a majority
of state statutes required a party to obtain property in
order to commit extortion, the Court reversed the judgment of conviction. Id. at 410.
Rather than consult the “ordinary, contemporary,
common meaning” in interpreting § 1956(c)(7)(B), Chi
urges us to hold that “bribery of a public official” is a
reference to 18 U.S.C. § 201. That reading is belied by
the rest of the statute. Several of the categories in
§ 1956(c)(7)(B) include references to specific federal

App. 18
laws, such as §§ 1956(c)(7)(B)(i) (Controlled Substances Act), 1956(c)(7)(B)(iii) (International Banking
Act of 1978), 1956(c)(7)(B)(v)(I) (22 U.S.C. § 2778),
and 1956(c)(7)(B)(v)(II) (15 C.F.R. Parts 730–74).
§ 1956(c)(7)(B)(iv), which includes “bribery of a public
official,” contains no such reference. “Where Congress
includes particular language in one section of a statute
but omits it in another section of the same Act, it is
generally presumed that Congress acts intentionally
and purposely in the disparate inclusion or exclusion.”
Russello v. United States, 464 U.S. 16, 23 (1983) (citation omitted). In the words of the district court, “had
Congress intended to criminalize the laundering of
bribery proceeds only where the foreign bribery statutes tracked the requirements of § 201, it would have
said so.”
Furthermore, even if “bribery of a public official”
were interpreted as a reference to a specific federal
statute, it is not clear to which statute it would refer.
To be sure, 18 U.S.C. § 201 is frequently referred to as
“the federal bribery statute.” McDonnell v. United
States, 136 S. Ct. 2355, 2365 (2016). But it is “merely
one strand of an intricate web of regulations, both administrative and criminal, governing the acceptance of
gifts and other self-enriching actions by public officials.” United States v. Sun-Diamond Growers of California, 526 U.S. 398, 409 (1999). Various federal
statutes apply to federal employees who participate in
proceedings relating to a matter in which they have a
financial interest, 18 U.S.C. § 208; employees who receive “any contribution to or supplementation of salary

App. 19
. . . from any source other than the [g]overnment,” 18
U.S.C. § 209; or employees who “solicit or accept anything of value from a person . . . whose interests may
be substantially affected by the performance or nonperformance of the individual’s official duties,” 5 U.S.C.
§ 7353. Faced with this web of regulation, § 1956(c)(7)(B)
gives no indication which—if any—federal law should
define the meaning of “bribery of a public official.”
Hence, absent a statutory basis to refer to and adopt
the elements of § 201, we interpret “bribery of a public
official” per Perrin’s instruction.
B. The “Ordinary, Contemporary, Common
Meaning” of “Bribery of a Public Official” in
2001 Included Article 129 of the South Korean
Criminal Code.
§ 1956(c)(7)(B)(iv)—“bribery of a public official, or
the misappropriation, theft, or embezzlement of public
funds by or for the benefit of a public official”—was
added to the statute as part of the Patriot Act in 2001.
Thus, to interpret the meaning of “bribery of a public
official,” we look to the ordinary meaning of the term
at that time.
In 2001, the latest edition of Black’s Law Dictionary defined “bribery” as “[t]he corrupt payment, receipt, or solicitation of a private favor for official
action.” Bribery, Black’s Law Dictionary (7th ed. 1999).
The Model Penal Code (MPC), meanwhile, defines bribery as:

App. 20
[O]ffer[ing], confer[ring] or agree[ing] to confer upon another, or solicit[ing], accept[ing] or
agree[ing] to accept from another:
(1) any pecuniary benefit as consideration for the recipient’s decision, opinion,
recommendation, vote or other exercise of
discretion as a public servant, party official or voter; or . . .
(3) any benefit as consideration for a violation of a known legal duty as [a] public
servant or party official.
Model Penal Code § 240.1, Bribery in Official and Political Matters (Am. Law Inst., 1962). The MPC defines
“public servant” as “any officer or employee of government, including legislators and judges, and any person
participating as juror, advisor, consultant or otherwise,
in performing a governmental function; but the term
does not include witnesses.” Id.
These sources demonstrate that based on the common understanding of the term at the time the statute
was enacted, “bribery” contained several elements.
First, it required two parties—one who “paid,” “offered,”
or “conferred” the bribe, and one who “received,” “solicited,” or “agreed to accept” it. Second, it required something to be given by the bribe-giver—either a “private
favor,” a “pecuniary benefit,” or “any benefit.” And third,
it required something to be given by the bribe-taker—
either “official action,” “the recipient’s decision, opinion, recommendation, vote or other exercise of discretion as a public servant,” or “a violation of a known
legal duty as public servant.”

App. 21
The foreign law at issue, Article 129 of the South
Korean Criminal Code, contains all three requirements. As translated in district court and read to the
jury, it states, in relevant part:
A public official or an arbitrator who receives,
demands or promises to accept a bribe in connection with his/her duties shall be punished
by imprisonment for not more than five years
or suspension of qualifications for not more
than ten years.
The first requirement is satisfied by “public official,”
which—in addition to matching the MPC and dictionary definition—undoubtedly aligns with the phrase
“bribery by a public official” in § 1956. The verbs expressed in the statute (“receives, demands, or promises”) mirror those found in contemporary sources as
well (“receive, solicit, or agree to accept”). The second
requirement is satisfied by the word “bribe,” which encompasses a “private favor,” “pecuniary benefit,” or
“any benefit.”
Chi argues that Article 129 does not fit within the
category of “bribery” because the third requirement is
missing. But by immediately preceding the phrase “in
connection with his/her duties,” the word “bribe” limits
the scope of what follows. A bribe itself is a “price, reward, gift, or favor bestowed or promised with a view
to pervert the judgment of or influence the action of a
person in a position of trust.” Bribe, Black’s Law Dictionary (7th ed. 1999) (emphasis added). The thing
given by the bribe-taker is therefore “the action of a
person in a position of trust” given “in connection with

App. 22
his/her duties.” In other words, for the jury to convict
Chi, they had to find that Chi acted in consideration of
and in exchange for the money he received—aligning
with the third requirement of bribery.
Article 129 of the South Korean Criminal Code
therefore falls within the category given in
§ 1956(c)(7)(B)(iv): “bribery of a public official, or the
misappropriation, theft, or embezzlement of public
funds by or for the benefit of a public official.” The district court did not err in so finding, nor did it err in
instructing the jury to that effect. Chi’s argument that
the indictment was in error fails for the same reason.
The indictment alleged a violation of Article 129; it did
not need to also allege a violation of federal bribery
law.
Lastly, Chi contends that even if Article 129 is the
applicable standard, the jury instructions were flawed
because they failed to communicate a necessary component of bribery: the “corrupt intent to be influenced.”
But Chi’s only authorities for finding a “corrupt intent
to be influenced” to be necessary for bribery are § 201
and Sun-Diamond Growers of California, 526 U.S. at
404, a case that interpreted that statute. This claim,
then, is merely a restatement of Chi’s general argument that § 1956(c)(7)(B) is to be defined by § 201. It
fails for the same reasons.7

7

Nor—contrary to Chi’s claims—is McDonnell applicable
here, as its holding also rested upon § 201. 136 S. Ct. at 2372. And
to the extent that McDonnell alluded to constitutional considerations, those considerations are not present here either. Chi was

App. 23
C. Chi’s Conviction Was Supported by Sufficient Evidence
Chi’s final argument is that insufficient evidence
supported his conviction. He claims that there was no
evidence to support the claim that the transaction in
Count 6—the $56,000 check from Chi’s Bank of America Account deposited in his Merrill Lynch account on
November 22, 2016—actually came from a violation of
Article 129. At trial, the government proffered bank
records indicating that Chi made two wire transfers in
late 2015 labeled as “commission” payments from
Kinemetrics. Chi claims that the government provided
no evidence that those wires arose from impermissible
activity.
Strictly speaking, that is true: Kinemetrics’ controller, Michelle Harrington, merely verified that the
transfers had taken place. But plenty of circumstantial
evidence gave rise to the inference that those transfers
were bribes. Chi’s communication with Kinemetrics
showed that he intended to keep the money for himself
rather than transfer it to KIGAM. His emails also
showed that he provided Kinemetrics with an illicit
service in return. In one email, for instance, Chi reported on the competing bids of several companies (including Guralp Systems) to Kinemetrics, advising
them on which products to present during the bidding
charged with a crime for engaging in a quid pro quo exchange
with foreign businesses, not the “people [he] serve[d].” Id. Similarly, by virtue of applying to “offenses against a foreign nation,”
the indictment and jury instructions did nothing to implicate the
issues of federalism present in McDonnell.

App. 24
process. And on May 24, 2015—approximately six
months before the wire transfers—Chi sent Kinemetrics an email providing them with confidential information about a competing company. He instructed
Kinemetrics not to distribute it.
Chi also used the term “advice fees” in his contemporaneous emails to Kinemetrics, the same term that
he used when speaking with Guralp Systems. Potts
testified that “advice fees” were bribes, and Chi had
previously admitted that the “advice fees” were illegal.
Chi’s emails to Kinemetrics showed considerable consciousness of guilt that a jury could conclude was inconsistent with legal behavior. And evidence was
presented that Kinemetrics deposited payments made
to a legitimate distributor to a bank in South Korea,
whereas the “advice fee” payments were made to a
bank in the United States.
All this evidence could give rise to the conclusion
that the money transferred to Chi’s Merrill Lynch account on November 22, 2016 was money received in violation of Article 129. For Chi to succeed, “all rational
fact finders would have to conclude that the evidence
of guilt fails to establish every element of the crime beyond a reasonable doubt.” United States v. Nevils, 598
F.3d 1158, 1165 (9th Cir. 2010). That is not true here.
AFFIRMED.

App. 25
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
V.

HEON-CHEOL CHI,
Defendant-Appellant.

No. 17-50358
D.C. No.
2:16-cr-00824-JFW-1.
ORDER AMENDING
OPINION

Filed November 19, 2019.
Before: Johnnie B. Rawlinson and Carlos T. Bea, Circuit
Judges, and Benjamin H. Settle,* District Judge.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

ORDER
The opinion filed on August 30, 2019, is amended
as follows:
Slip opinion page 21: DELETE <And on May 24
2015—approximately six month before the wire transfers—>. In its place ADD <In another,>.
The amended sentence shall read, “In another, Chi
sent Kinemetrics an email providing them with confidential information about a competing company.”

* The Honorable Benjamin H. Settle, United States District
Judge. for the Western District of Washington, sitting by designation.

App. 26
With the foregoing amendment, the panel has
voted to deny the petition for panel rehearing. Judges
Rawlinson and Bea have voted to deny the petition for
rehearing en banc, and Judge Settle so recommends.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35.
The petition for panel rehearing and the petition
for rehearing en banc are DENIED. No additional petitions for rehearing will be permitted.

